     Department of Homeland Security

     ��������������������������


  Los Angeles County, California, Did Not Properly 

 Account For and Expend $3.9 Million in FEMA Grant 

          Funds for Debris-Related Costs 





DS-13-11                                    July 2013

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



                                        JUL 1 8 2013
MEMORANDUM FOR:                    NancyWard
                                   Regional Administrator, Region IX
                                   Federal E   ge y             ent Agency

FROM:
                                   Assistant        r General
                                   Office of Emergency Management Oversight

SUBJECT:                          Los Angeles County, California, Did Not Properly Account
                                  For and Expend $3.9 Million in FEMA Grant Funds for
                                  Debris-Related Cost5
                                  FEMA Disaster Number lS77-0R-CA
                                  Audit Report Number 05-13-11

We are currently auditing Federal Emergency Management Agency (FEMA) Public
Assistance grant funds awarded to Los Angeles County, California (County), Publi,
As~istance Identification Number 037-99037-00. This report generally focuses on
deb ris-related activities of that Pu bl ic Assistance gra nt. Ou r au d it objective is to
determine whether the County accounted for and expended FEMA Public Assistance
grant funds according to Federal regulations and FEMA guidelines.

The California Emergency Management Agency (Cal EMAl, a FEMA grantee, awarded
the County $54.9 million for costs resulting from storms, flooding, debriS flows, and
mudslides during the period of December 27, 2004, through January 11, 2005.' The
award provided 75 percent FEMA funding for 143 large projects and 35 small projects.'
Our audit covered the period from December 27, 2004, to May 1, 2013. Thi~ report
presents findings related to five projects we comprehensively audited, totaling $10.4
million in awarded project funding for debris-related COSH, for which the County has
requested $6 million in reimbursements for costs incurred.

The purpose of this memorandum is to advise you th~t although we have not yet
completed our final report on the County for the aforementioned disaster, we
nevertheless identified a broad ~pectrum of costs associated with the County"s debris-
related activities that should be disallowed.


1At th~ ~m~ of thi' di,~,tcr, the gr"nt"c', n"m. was the Governor', Orr.ce of Emergency Service<, which
became part of Cal EMA on J.nu.ry 1, 1009.
'Fede ro l rpgul.tion, in elfect.t the t<m~ of th~ di.""t~r,.,t the lJrge proi~ct thre,hoid.t $55,500.
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   We conducted this segment of this performance audit between January 2013 and May
   2013, pursuant to the Inspector General Act of 1978, as amended, and according to
   generally accepted government auditing standards. Those standards require that we
   plan and perform the audit to obtain sufficient, appropriate evidence to provide a
   reasonable basis for our findings and conclusions based upon our audit objective. We
   believe that the evidence obtained provides a reasonable basis for our findings and
   conclusions based upon our audit objective. We conducted this audit applying the
   statutes, regulations, and FEMA policies and guidelines in effect at the time of the
   disaster. At the conclusion of our audit, we plan to issue our final audit report
   (notwithstanding the issuance of any additional interim reports), including any other
   findings and recommendations.

   We interviewed FEMA, State, and County officials; judgmentally selected project costs
   (generally based on dollar value); reviewed cost documentation; evaluated applicable
   Federal regulations and FEMA guidelines; and performed other procedures considered
   necessary to accomplish our audit objective. We did not assess the adequacy of the
   County’s internal controls applicable to its grant activities because it was not necessary
   to accomplish our audit objective. However, we gained an understanding of the
   County’s method of accounting for disaster-related costs and its policies and procedures
   for administering activities provided for under the FEMA grant.

                                      RESULTS OF AUDIT

   Of the $6,020,249 in claimed costs that we audited for this report, County officials did
   not properly account for or expend a total of $3,942,409 in costs associated with their
   debris-related activities.




www.oig.dhs.gov                                2                                         DS-13-11
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

                           Table 1: Summary of Costs Questioned
                                                            Questioned
                                                 Total          Costs
                                                                          Net Costs
       Finding            Subject                Costs      Included in
                                                                         Questioned
                                              Questioned       Other
                                                              Findings
          A       Improper Procurement          $2,473,706               $2,473,706
          B        Debris Basin Cleanout           862,878                  862,878
               Unsupported Debris Removal                    $1,664,930
          C                                      2,038,260
                      Contract Costs                         (Finding A)    373,330
          D    Unsupported Equipment Costs         232,495                  232,495
        Total                                  $5,607,339 $1,664,930 $3,942,409

   Finding A: Improper Procurement

   County officials did not comply with Federal procurement regulations and FEMA
   guidelines, for contracts totaling $2,473,706 for Projects 2274 ($490,630), 2890
   ($231,976), 2940 ($1,664,930), and 2996 ($86,170).3 As a result: full and open
   competition, after the exigency period and when a scope of work could be formulated,
   did not occur; work was improperly awarded on a time and materials basis; and costs
   were neither contained nor carefully monitored. Consequently, FEMA had no assurance
   that these costs were reasonable.

   Federal procurement standards at 44 Code of Federal Regulations 13.36 require that—

           Performance of procurement transactions occur in a manner providing full and
           open competition except under certain circumstances, such as when there are
           circumstances that will not permit a delay resulting from competitive
           solicitation. (13.36(c)(1) and (d)(4)(i)(B))

           Subgrantees shall not use time and materials contracts unless a determination is
           made that no other contract is suitable and provided that the contract includes a
           ceiling price that the contractor exceeds at its own risk. (13.36(b)(10))

           Subgrantees maintain a contract administration system that ensures contractors
           perform according to the terms, conditions, and specifications of their contracts
           or purchase orders. (13.36 b)(2)) 



   3
    Our audit threshold for the review of the County’s compliance with applicable procurement standards
   was $75,000 and above.

www.oig.dhs.gov                                      3                                              DS-13-11
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
   FEMA provides additional procurement guidelines in its publications. FEMA’s Public
   Assistance Guide (FEMA 322, October 1999, p. 40), and Public Assistance Applicant
   Handbook (FEMA 323, September 1999, pp. 28–29), state that—

           FEMA provides reimbursement for three types of contracts: lump sum, unit
           price, and cost-plus-fixed-fee.

           Time and materials contracts should be avoided.

           If time and materials contracting is used, it should relate to work that is
           necessary immediately after the disaster has occurred, when a clear scope of
           work cannot be developed.

           Time and materials contracts for debris removal, for example, should be limited
           to a maximum of 70 hours of actual debris clearance work and should be used
           only after all available local, tribal, and State government equipment has been
           committed. These contracts should be terminated once the designated dollar
           ceiling or the not-to-exceed number of hours is reached.

           Time and materials contracts may, on occasion, be extended for a short period
           when absolutely necessary, for example, until appropriate unit price contracts
           have been prepared and executed.

           Applicants must carefully monitor and document contractor expenses.

           When time and materials contracting is employed, the applicant should notify
           the State to ensure proper guidelines are followed.

   County officials noncompetitively awarded debris-related work to various contractors
   for four FEMA-funded projects. The County awarded these contracts: without full and
   open competition; after the exigency period; and when a scope of work could be
   formulated. The County selected the contractors from an on-call list that the County
   established in early 2002 (approximately 3 years before the disaster) for its internal
   operations. Because the County’s selection occurred before the disaster, pricing could
   not be predicated upon a FEMA- (or otherwise-) specified scope of work, nor could a
   comparison be made to other contractors who may have offered more competitive
   pricing on a particular, defined, post-disaster scope of work.

   Without proper procurement, contractors may charge higher rates for their services—
   particularly in comparison with other contractors that could potentially perform the
   work at more competitive prices. Using these preselected/on-call contractors may have

www.oig.dhs.gov                                4                                        DS-13-11
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
   been advantageous to the County for routine (nondisaster) projects, and even in the
   immediate aftermath of a disaster (i.e., the exigency period), when a scope of work
   could not be easily defined and a streamlined procurement process was necessary to
   ensure the safety of lives and property. However, it was not appropriate to claim costs
   associated with these contracts for the full extent of disaster-related projects ultimately
   reimbursed by the Federal Government when there was no exigency or actual assurance
   that contract costs were reasonable.




                         Figure 1: Debris Removal: Roads, Shoulders, and Drains

                                 Source: FEMA Project Worksheet 2940.


   After the exigency period had passed, full and open competition—through competitive
   bidding on an appropriate type of contract (i.e., non–time and materials)—should have
   occurred. It did not. Instead, County officials allowed the four contractors to complete
   the projects on a time and materials basis, and without project-specific contracts and
   project-specific scopes of work (see finding C). Further—

           The circumstances did not warrant the award of a noncompetitive/time and
           materials contract after the exigency period passed.

           There was no evidence that only time and materials contracts would be suitable.

           The contracts did not include project-specific cost ceilings.

           Contractor expenses were not carefully and consistently monitored.

           County personnel did not notify Cal EMA to ensure that proper procurement
           guidelines were being followed.


www.oig.dhs.gov                                    5                                     DS-13-11
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


                                    Table 2: Improper Procurement by Project
                            Procurement Violations for FEMA Disaster-Related Work:
                               Noncompliance with Federal Rules and Regulations

                                       Established
                                        Non-Time
                           Limited                                                   Notified State
                                      and Materials   Established      Carefully
                          Time and                                                    (Grantee) to
              Avoided                    Contracts     a Project      Monitored
   Project                Materials                                                  Ensure Proper      Costs
              Time and                with Full and   Cost Ceiling       and
                          Contracts                                                  Procurement      Questioned
             Materials                     Open        or ‘Not To    Documented
                              to                                                       Guidelines
             Contracts?                Competition      Exceed’       Contractor
                          Exigency                                                       Were
                                        (After Any    Provision?      Expenses?
                           Period?                                                     Followed?
                                         Exigency
                                         Period)?

    2274          No         No            No               No           No               No            $490,630
    2890          No         No            No               No           No               No             231,976
    2940          No         No            No               No           No               No           1,664,930
    2996          No         No            No               No           No               No              86,170
    Total                                                                                             $2,473,706


   Full and open competition helps provide assurance that contract costs are reasonable;
   increases the number of available contracting sources, and thereby increases the
   opportunity for obtaining reasonable pricing from the most qualified contractors; and
   helps discourage and prevent favoritism, collusion, fraud, waste, and abuse.

   Because the County did not comply with Federal procurement standards and FEMA
   guidelines, we question $2,473,706 claimed for improper and ineligible costs associated
   with Projects 2274 ($490,630), 2890 ($231,976), 2940 ($1,664,930), and 2996 ($86,170).

   County officials told us that it is administratively cost-effective for the County to
   precompete its debris-related trucking contracts every 2–3 years. However, (1) the
   County’s use of Federal funds is governed by Federal rules—with which the County did
   not comply (including requirements to use full and open competition, limit time and
   materials contracts, etc.); (2) the precompeted contracts were awarded to contractors
   that needed only to appear the most competitive and responsible; and (3) the contracts
   were established for the County’s “as-needed”—rather than specific, FEMA-related—
   work.

   Cal EMA officials did not comment on this finding.

   FEMA officials told us that they will withhold comment on this finding until after they
   review their records and those documents associated with the County’s final claimed
   costs.



www.oig.dhs.gov                                         6                                                  DS-13-11
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Finding B: Debris Basin Cleanout

   County officials claimed a total of $862,878 in ineligible debris basin cleanup costs for
   Project 2275 that were unrelated to Disaster 1577 (under which they are claiming
   reimbursement). This occurred because the disaster-related debris contained within
   the basin was comingled with the non-disaster-related debris, and there was no
   documentation to support that the debris—and therefore costs—could be attributed to
   FEMA Disaster 1577.

   Federal regulations and FEMA guidelines state that—

           To be eligible for financial assistance, an item of work must be required as the
           result of the major disaster event. (44 CFR 206.223(a)(1))

           The predisaster level of debris in the channel or basin is of particular importance
           to determine the amount of newly deposited disaster-related debris. Such a
           facility must also have had a regular clearance schedule to be considered an
           actively used and maintained facility. (FEMA 322, October 1999, p. 55)4

           Work performed must: (1) be required as a direct result of the declared disaster;
           and (2) relate to the project’s FEMA-approved scope, to be eligible for Federal
           funding. (FEMA 322, October 1999, pp. 23 and 73; and FEMA 323, September
           1999, pp. 21, 32, and 52)

   County officials did not comply with these criteria. Specifically, the County last removed
   the debris from the basin in July 2003—approximately 17 months before the disaster.5
   This is problematic because County officials charged FEMA for all debris-related
   activities without considering the amount of debris in the basin from the time of their
   last cleanout until the disaster for which they requested Federal funds, or the debris
   that accumulated after the disaster and before the FEMA-funded debris cleanout—
   which occurred about 9 months later. Thus, non-disaster-related debris in the basin was
   comingled with disaster-related debris, whereby all resulting costs were improperly
   charged to FEMA.




   4
     These criteria relate to those projects designated by FEMA as Category D: Water Control Facilities. Such
   facilities include debris basins, as well as dams and reservoirs, levees, lined and unlined engineered
   drainage channels, shore protective devices, irrigation facilities, and pumping facilities. FEMA assigned
   Category D to Project 2275.
   5
     According to the County, no more than 5 percent of debris remained in the basin after cleanout .

www.oig.dhs.gov                                        7                                                DS-13-11
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   We know of no methodology, documentary support, or criteria that would allow County
   officials to claim, and FEMA officials to approve, all the debris-removal costs as eligible.

   Therefore, to determine eligible costs, we prorated the total debris basin cleanup costs
   claimed by County officials under Disaster 1577 by using the percentage of (debris­
   producing) rainfall that occurred during the period of the last (County-funded) cleanup
   in July 2003 until the next cleanup (which was FEMA-funded) in September 2005. We
   determined that $862,878, or 67 percent of the claimed amount of $1,282,791, is
   ineligible because it was not the result of the disaster under which the County is seeking
   Federal funding. Therefore, eligible costs, for which the County should receive funding,
   equal $419,913, or 33 percent of the claimed costs.6 In addition, the County may be
   entitled to receive approximately $121,919 associated with Disaster 1585 if/when (1)
   County officials claim those costs under that disaster, (2) eligibility can be established,
   and (3) costs are adequately supported with sufficient documentation.




   6
     Proration of these total costs claimed for Disaster 1577, using the percentage of total rainfall, as
   identified above, calculates that 67 percent of the County’s total claimed amount ($862,878 divided by
   $1,282,791) is ineligible; therefore, 33 percent ($419,913 divided by $1,282,791) can be considered
   eligible for FEMA Public Assistance grant funding.

www.oig.dhs.gov                                        8                                               DS-13-11
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


                       Table 3: Proration of Questioned Costs by Total Rainfall: July 2003 – September 2005
                                                                                                 Proration
                                                                                                  of Total
                                                                    Percent of
                                                                                                   Debris
                                                                       Total
                                                                                                    Basin
                                                                     Rainfall:
                                            Debris-                                               Cleanup
                                                         Rainfall     July 1,      Amount                     Costs
        Debris-Producing Event             Producing                                            Costs from
                                                         (Inches)      2003        Claimed                  Questioned
                                             Period                                                July 1,
                                                                     through
                                                                                                    2003
                                                                     Sept. 30,
                                                                                                  through
                                                                       2005
                                                                                                 Sept. 30,
                                                                                                    2005
                                       Last Debris Basin Cleanout: July 2003 (County-Funded)
                            Major
                                        December 27,
                          Declared
            Major                            2004 -
                           Disaster                        15.12”       32.73% $1,282,791          $419,913           0
          Declared                        January 11,
                          DR-1577­
          Disaster                            2005
                              CA
         (Federal &
                            Major
            State                        February 16,
                          Declared
       Responsibility,                       2005 -
                           Disaster                          4.39          9.50             0       121,919   $121,919
       per Eligibility)                  February 23,
                          DR-1585­
                                7             2005
                             CA
           Subtotals: Major Declared Disasters             19.51”       42.23% $1,282,791          $541,832   $121,919
                           Regular
                                                    8
                           Rainfall     July 1, 2003 -
                            (Non-       December 26,       18.85”       40.81%           N/A       $523,503   $523,503
                          Declared            2004
                          Disaster)
           Regular
                           Regular
          Rainfall /                     January 12,
                           Rainfall
       Non-Declared                          2005 -
                            (Non-                            0.70          1.52          N/A         19,441     19,441
          Disasters                      February 15,
                          Declared
          (County                             2005
                          Disaster)
       Responsibility)
                           Regular
                                         February 24,
                           Rainfall
                                             2005 -
                            (Non-                            7.13         15.44          N/A        198,015    198,015
                                        September 30
                          Declared                9
                                             2005
                          Disaster)
               Subtotals: Regular Rainfall /
                                                           26.68”       57.77%           N/A       $740,959   $740,959
                  Non-Declared Disasters
                           Totals                          46.19”         100% $1,282,791 $1,282,791          $862,878




   7
     Federal regulations at 44 CFR (206.223(a)(1)) stipulate that to be eligible for financial assistance, an item
   of work must be required as the result of the major disaster event. As such, FEMA obligated separate
   Public Assistance grant funding for Disaster 1585, and therefore costs associated with that Disaster are
   ineligible when claimed under a different disaster (such as Disaster 1577).
   8
     This date denotes the County’s last debris basin cleanup prior to Disaster 1577-DR-CA. The rainfall 

   accounted for in this period did not begin in earnest until approximately December 2003.

   9
     This date denotes the County’s last debris basin cleanup subsequent to Disaster 1585-DR-CA.

www.oig.dhs.gov                                               9                                                   DS-13-11
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   This circumstance—and the reason why proration was necessary—was, in part,
   exacerbated by the County’s debris maintenance policy, which does not mandate the
   pre- and post-disaster measurement and removal of debris. Consequently, the specific
   amount of debris at given intervals cannot be established, and it cannot be determined
   whether the debris that was removed was entirely the result of Disaster 1577, rather
   than of a subsequent declared disaster (Disaster 1585, in February 2005), or the other
   rainy periods before or after Disaster 1577.




                    Figure 2: Debris Basin Pre-Storm (January 19, 2005) (Little Dalton)

                                 Source: FEMA Project Worksheet 2275.





                    Figure 3: Debris Basin Post-Cleanout (June 7, 2005) (Little Dalton)

                                 Source: FEMA Project Worksheet 2275.


   We therefore question $862,878 claimed for Project 2275 as ineligible and unrelated to
   the Federal disaster to which it was attributed.

   County officials disagreed with our finding, stating that there was negligible rainfall (and
   therefore debris) between the date of the County’s last cleanout and the disaster.
   Those officials, however, did not provide documented evidence supporting their
   assertions. They also did not comment on the rainfall and debris produced after the
   disaster but prior to the FEMA-funded cleanout. Our analysis—based directly on annual


www.oig.dhs.gov                                     10                                     DS-13-11
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   rainfall data provided to us by County officials—revealed that the County’s assertion 

   was inaccurate and that there was significant rainfall before and after the disaster. 


   Cal EMA officials stated that debris levels measured prior to the FEMA-funded cleanout
   identified that 95 percent of the debris was attributed to Disaster 1577. Cal EMA also
   stated that based on County policy for routine debris basin cleanout, the County does
   not remove 5 percent of its debris; thus the County charges to the FEMA-funded
   projects do not include costs relating to 5 percent of the debris. Cal EMA explained,
   however, that neither the County nor Cal EMA officials have sufficient documented
   evidence to substantiate that the County’s claim to FEMA pertains only to debris
   generated by Disaster 1577.

   FEMA officials told us that they will withhold comment on this finding until after they
   review their records and those documents associated with the County’s final claimed
   costs.

   Finding C: Unsupported Debris Removal Contract Costs

   County officials improperly claimed $2,038,260 in contracted debris removal activities
   for Project 2940 that they could not support with sufficient documentation.

   Federal regulations and FEMA guidelines predicate eligibility on sufficient documentary
   support:

           44 CFR 13.20(a)(2) and (b)(2) requires subgrantees to have fiscal controls and
           accounting procedures that permit the tracing of funds, and to maintain records
           that adequately identify the source and application of funds provided for
           financially assisted activities.

           Cost Principles for State, Local, and Indian Tribal Governments require that costs
           be adequately documented to be allowable under a Federal award. (Office of
           Management and Budget Circular A-87, Attachment A, Section C.1.j)10

           FEMA’s Public Assistance Guide (FEMA 322, October 1999, pp. 113–114) states
           that it is critical that the applicant establish and maintain accurate records of
           events and expenditures related to disaster recovery work, and that the
           importance of maintaining a complete and accurate set of records for each
           project cannot be overemphasized; good documentation facilitates the project
           formulation, validation, approval, and funding processes.

   10
     Office of Management and Budget Circular A-87, in effect at the time of the disaster, was relocated to 2
   CFR 225 on August 31, 2005.

www.oig.dhs.gov                                       11                                               DS-13-11
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  o	 The information required for documentation describes the “who, what,
                     when, where, why, and how much,” for each item of disaster recovery
                     work.

                  o	 The applicant should have a financial and record-keeping system in place
                     that can be used to track these records.

                  o	 All of the documentation pertaining to a project should be filed with the
                     corresponding project (files) and maintained by the applicant as the
                     permanent record of the project.

                  o	 These records become the basis for verification of the accuracy of project
                     cost estimates during validation of small projects, reconciliation of costs
                     for large projects, and audits.

   County officials did not comply with these criteria in the following ways:

           A specific (measurable) scope of work for the contractors was never established.

           Documentation indicating how much debris was being hauled, and how much
           was being dumped, was never maintained by either County officials or the
           contractors.

           Contractors’ timesheets associated with these debris removal activities were not
           consistently validated.

           The FEMA inspector’s report notes that the debris removal activities were 100
           percent completed by August 2005, yet the County continued to charge the
           project with costs after this date.

   Consequently, we cannot determine how FEMA, Cal EMA, or County officials quantified
   the debris or validated its hauling and disposal. Without this information, we are unable
   to verify both the accuracy and validity of the charges to this project, and consequently
   question $2,038,260 in claimed costs. Because we questioned $1,664,930 as part of the
   total funding questioned due to improper procurement for Project 2940 (finding A), the
   balance of ineligible costs is $373,330 ($2,038,260 less $1,664,930).

   County officials acknowledged that they did not maintain documentation (such as load
   quantity tickets) because they were dumping the debris on their own sites, at zero cost
   to the project, and stated that the use of these sites resulted in cost savings. However,


www.oig.dhs.gov                                   12                                 	      DS-13-11
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   without such documentation, we cannot establish how much debris was cleared and the
   amount that was dumped. County officials also stated that the FEMA inspector who
   documented that the debris removal activities were 100 percent completed by August
   2005 was mistaken. They indicated that they would look for additional information to
   support their claimed costs and provide that documentation to us, if available. We did
   not receive any additional information.

   Cal EMA officials agreed that the costs may not have been supported to the level of
   detail Federal criteria requires to validate disaster charges, but stated that the County
   does not always have documentary support.

   FEMA officials told us that they will withhold comment on this finding until after they
   review their records and those documents associated with the County’s final claimed
   costs.

   Finding D: Unsupported Equipment Costs

   County officials claimed $232,495 in equipments costs for which they do not have
   sufficient documentation.


                      Table 4: Unsupported Equipment Costs by Project
                                 Documentation
                                                         Unsupported
              Project Number       Identified
                                                  Equipment Costs Claimed
                                   Operator?
                   2274               No                            $133,052
                   2890               No                              44,989
                   2996               No                              54,454
                   Total                                            $232,495

   Specifically, County officials, when charging for equipment, did not specify an operator
   of that equipment. For example, claimed costs for the usage of trucks, loaders, tractors,
   etc., could not be matched to the operators of that equipment. Consequently, we were
   unable to verify whether the equipment hours claimed for the projects were the actual
   number of hours the equipment was in operation—a requirement of Federal regulations
   and FEMA guidelines:

           44 CFR 13.20(a)(2) and (b)(2) require subgrantees to have fiscal controls and
           accounting procedures that permit the tracing of funds, and to maintain records
           that adequately identify the source and application of funds provided for
           financially assisted activities.


www.oig.dhs.gov                                13                                         DS-13-11
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

           Cost Principles for State, Local, and Indian Tribal Governments require that costs
           be adequately documented to be allowable under a Federal award. (Office of
           Management and Budget Circular A-87, Attachment A, Section C.1.j)11

           FEMA’s Public Assistance Guide (FEMA 322, October 1999, pp. 113–114) states
           that it is critical that the applicant establish and maintain accurate records of
           events and expenditures related to disaster recovery work, and that the
           importance of maintaining a complete and accurate set of records for each
           project cannot be overemphasized; good documentation facilitates the project
           formulation, validation, approval, and funding processes.

                  o	 The information required for documentation describes the “who, what,
                     when, where, why, and how much,” for each item of disaster recovery
                     work. This includes force account equipment information.

                  o	 The applicant should have a financial and record-keeping system in place
                     that can be used to track these records.

                  o	 All of the documentation pertaining to a project should be filed with the
                     corresponding PW and maintained by the applicant as the permanent
                     record of the project.

                  o	 These records become the basis for verification of the accuracy of project
                     cost estimates during validation of small projects, reconciliation of costs
                     for large projects, and audits.

   Therefore, we conclude that $232,495 in equipment costs associated with Projects
   2274, 2890, and 2996 are ineligible as a result of insufficient documentation to support
   the costs claimed.

   County officials stated that the work was performed, even when supporting
   documentation does not identify an operator. We told them that it is critical to have
   documentation supporting what equipment was used, by whom, and for how long.
   Such documentation constitutes the basis to validate that the equipment was actually
   being used and, for example, costs were not claimed for equipment that was idle.

   Cal EMA officials agreed that there was no support, but stated that the County typically
   would not document this information. We responded that the County generally does


   11
     Office of Management and Budget Circular A-87, in effect at the time of the disaster, was relocated to 2
   CFR 225 on August 31, 2005.

www.oig.dhs.gov                                       14                                        	      DS-13-11
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   maintain this documentation—such as on the other projects we reviewed—and that
   these three particular projects were the obvious exception.

   FEMA officials concurred with this finding.

                                         RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IX:

   Recommendation #1: Disallow $2,473,706 (Federal share $1,855,280) of ineligible costs
   claimed for Projects 2274 ($490,630), 2890 ($231,976), 2940 ($1,664,930), and 2996
   ($86,170) related to contracts that were not procured in accordance with Federal
   requirements, unless FEMA officials decide to grant an exception for all or part of the
   costs as provided for in 44 CFR 13.6(c) and Section 705(c) of the Stafford Act (finding A).

   Recommendation #2: Disallow $862,878 (Federal share $647,159) claimed for Project
   2275 as ineligible and unrelated to the Federal disaster to which it was attributed
   (finding B).

   Recommendation #3: Instruct the County on the benefits of specific maintenance
   and/or debris measurement schedules, as well as keeping regular, verifiable data on the
   current amount of basin debris—particularly with respect to claims for Federal
   reimbursement (finding B).

   Recommendation #4: Formulate a methodology for determining eligible debris removal
   costs in the absence of specific measurement data for debris comingled across a variety
   of debris-producing periods (finding B).

   Recommendation #5: Determine, in coordination with Cal EMA (grantee) officials,
   whether the County is entitled to receive approximately $121,919 (based on our
   proration) in Public Assistance grant funding for debris basin cleanup costs associated
   with Disaster 1585 when (1) claimed under that disaster, (2) eligibility can be
   established, and (3) costs are adequately supported with sufficient documentation
   (finding B).

   Recommendation #6: Disallow $2,038,260 (Federal share $1,528,695) in unsupported
   contracted debris removal costs for Project 2940, unless County officials can provide
   adequate documentation to support them. Because we question (and recommend
   disallowance of) $1,664,930 as part of the total funding questioned as a result of
   improper procurement (finding B), the balance of ineligible costs recommended for
   disallowance per this finding is $373,330 ($2,038,260 less $1,664,930) (Federal share
   $279,998) (finding C).

www.oig.dhs.gov                                  15                                      DS-13-11
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Recommendation #7: Disallow $232,495 (Federal share $174,371) in unsupported
   equipment costs associated with Projects 2274 ($133,052), 2890 ($44,989), and 2996
   ($54,454), unless County officials can provide adequate documentation to support them
   (finding D).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed these results with County officials during the course of this interim audit
   and included their comments in this report, as appropriate. We also provided a written
   summary of our findings and recommendations in advance to County and Cal EMA
   officials on December 3, 2012, and FEMA officials on January 29, 2013. We discussed
   the findings and recommendations at an exit conference with County and Cal EMA
   officials on January 23, 2013, and FEMA officials on May 1, 2013. The County requested
   a 2-week period in which to provide us any additional information, if available, in
   response to our questioned costs. They did not provide any additional (new)
   information.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Western Regional Office
   Director; Devin Polster, Supervisory Analyst; Ravi Anand, Senior Auditor; and Montul
   Long, Auditor.

   Please call me with any questions, or your staff may contact me at (202) 254-4100 or
   Humberto Melara at (510) 637-1463.




www.oig.dhs.gov                               16                                       DS-13-11
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security
                                                                                                             Exhibit

                                         Schedule of Costs Questioned

                                                                                Costs Questioned
                                                                                    Unsupported
            FEMA       Project      Project Costs                       Debris         Debris      Unsupported
 Project                                                Improper                                                    Total
           Category     Award        Claimed /                           Basin        Removal       Equipment
Number12                                              Procurement                                                 Questioned
           of Work     Amount         Incurred                         Cleanup        Contract         Costs
                                                       (Finding A)                                                  Costs
                                                                      (Finding B)       Costs       (Finding D)
                                                                                     (Finding C)
 2274         D        $1,242,180       $1,079,046         $490,630                                   $133,052       $623,682
 2275         D         1,854,000         1,282,791                    $862,878                                       862,878
 2890         A         2,959,095           565,410         231,976                                     44,989        276,965
 2940         A         2,357,432         2,357,432       1,664,930                    $373,330                     2,038,260
 2996         C         2,032,403           735,570          86,170                                     54,454        140,624
 Total                $10,445,110      $6,020,24913      $2,473,706    $862,878        $373,330       $232,495     $3,942,409




     12
        The County filed a Project Listing and Completion and Certification Report (P4) for these projects with
     Cal EMA.
     13
        County officials had $4,424,861 in unneeded funding for these projects that we identified in the course
     of this audit and presented in our Interim Report #1. We recommended that these funds be deobligated
     and put to better use. Consequently, FEMA has deobligated this funding pursuant to our audit
     recommendation. See http://www.oig.dhs.gov/assets/GrantReports/OIG_DS-12-06_Mar12.pdf.

www.oig.dhs.gov                                           17                                                      DS-13-11
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                                                   Appendix 


                                      Report Distribution

   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-12-010)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Followup Coordinator

   Grantee (California Emergency Management Agency)

   Secretary
   Executive Assistant to the Secretary
   Chief of Staff
   Audit Liaison

   State (California)

   California State Auditor, Bureau of State Audits




www.oig.dhs.gov                               18                       DS-13-11
                           OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
   Subgrantee (Los Angeles County, California)

   Chief Executive Officer
   Senior Manager
   Interim Manager
   Principal Accountant-Auditor

   Congressional Oversight and Appropriations Committees, as appropriate, including:

   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform
   House Committee on Transportation and Infrastructure

   Office of Management and Budget

   Chief, Homeland Security Branch
   Department of Homeland Security Office of Inspector General Budget Examiner




www.oig.dhs.gov                               19                                   DS-13-11
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Mail Stop 0305, Washington, DC, 20528; or you may call 1 (800)
323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
